No. 20-454

 

 

IN THE

Supreme Court of the Cited States

ALEX M. AZAR II, SECRETARY OF HEALTH AND HUMAN SERVICES, et al.,
Petitioners,
Vv.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this 9”
day of November, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing BRIEF OF AMICI CURIAE THE AMERICAN
ASSOCIATION OF PRO-LIFE OBSTETRICIANS & GYNECOLOGISTS AND
CHRISTIAN MEDICAL AND DENTAL ASSOCIATIONS IIN SUPPORT OF
PETITIONERS by placing said copies in FEDERAL EXPRESS, PRIORITY
OVERNIGHT, addressed as listed below.

Jeffrey B. Wall Andrew Timothy Tutt

Acting Solicitor General Arnold & Porter Kaye Scholer LLP
of the United States 601 Massachusetts Avenue, NW

United States Department of Justice Washington, DC 20001

950 Pennsylvania Avenue, NW andrew.tutt@arnoldporter.com

Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

 

 

1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 9" day of November, 2020.

 

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

 

 

 
